Report No. DODIG-2013-063                   April 8, 2013




      Award and Administration of Performance-Based
               Payments in DoD Contracts
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACO                           Administrative Contracting Officer
DCMA                          Defense Contract Management Agency
DFAS                          Defense Finance and Accounting Service
FAR                           Federal Acquisition Regulation
PBP                           Performance-Based Payment
PCO                           Procurement Contracting Officer
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500

                                                                             April 8, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE PRICING

SUBJECT: Award and Administration of Performance-Based Payments in
         DoD Contracts (Report No. DODIG-2013-063)

We are providing this report for information and use. DoD contracting personnel needed
additional guidance and training to better award and administer the $13.2 billion in
performance-based payment events contained in the 60 contracts reviewed. These
improvements should reduce DoD's risk of making future payments without measurable
contractor performance and help ensure the contractor obtains full performance before
payment.

We considered Defense Pricing comments on a draft of this report when preparing the
final report. The comments conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, no additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945.



                                           d~z~---r~\4~~-6__
                                             LorinT. Venable
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations
Report No. DODIG-2013-063 (Project No. D2012-D000DD-0139.000)                  April 8, 2013

               Results in Brief: Award and Administration
               of Performance-Based Payments in
               DoD Contracts
                                                        not require contracting personnel to take any
What We Did                                             performance-based payment contract financing
We determined whether DoD contracting                   training and DoD guidance was inadequate and
personnel’s negotiation and administration of           inaccurate.
60 performance-based payment schedules,                 As a result, DoD risked making advance
which identify all events for a contract, were in       payments totaling $11.4 billion and might have
compliance with Federal Acquisition Regulation          made full payments for less than full contract
and DoD requirements. Specifically, we                  performance. Also, the Government could have
determined whether DoD properly negotiated,             needlessly incurred $28.8 million in carrying
verified, and disbursed the payment requests.           costs associated with the $7.5 billion that DoD
The contracts containing the schedules were             paid contractors. The Government could realize
awarded from FY 2009 through FY 2011 and                potential monetary benefits of $13.6 million to
are valued at $13.2 billion.                            $53.3 million over the next 5 years related to
                                                        reduced carrying costs. Finally, DoD limited its
What We Found                                           ability to ensure that it received adequate
Contracting personnel did not properly evaluate         consideration.
and negotiate schedules. Specifically, they did
not:                                                    What We Recommend
• establish appropriate events for                      The Director, Defense Pricing, should:
     1,807 events out of 2,356 total events on          • require that contracting personnel request a
     57 approved performance-based payment                 contractor estimate of expenditures before
     schedules, and determine whether the event            approving the performance-based payment
     value fairly represented contract                     schedule;
     performance for 44 schedules;                      • develop a training program that includes a
• clearly define the criteria for successful               discussion on appropriate event descriptions
     completion in 33 schedules, identify events           and required elements; and
     as severable or cumulative in 23 schedules,        • update guidance to require contracting
     and specify completion dates in                       personnel to determine whether the contractor
     21 schedules; or                                      could obtain private financing and the amount
•    properly negotiate and verify the                     of contract financing and define what a
     contractors’ need for contract financing or           reasonable level of contractor investment is.
     level of investment before authorizing
     performance-based payments in all                  Management Comments and
     60 sample contracts.                               Our Response
This occurred because DoD contracting                   Management comments were responsive, and no
personnel did not perform adequate reviews of           additional comments are required. Defense
schedules provided by contractors and did not           Pricing will issue guidance addressing the topics
use expenditure data or other independent data          contained in the recommendations. Please see the
to value events. In addition, DoD guidance did          Recommendations Table on the back of this page.

                                                    i
Report No. DODIG-2013-063 (Project No. D2012-D000DD-0139.000)       April 8, 2013

Recommendations Table

         Management                Recommendations        No Additional Comments
                                  Requiring Comment                 Required
Director, Defense Pricing                                 A.1.a, A.1.b, A.1.c, A.1.d,
                                                          A.2
                                                          B.1.a, B.1.b, B.1.c, B.2.a,
                                                          B.2.b
                                                          C.1, C.2, C.3




                                        ii
Table of Contents
Introduction                                                                 1
      Objective                                                              1
      Background                                                             1
      Review of Internal Controls                                            3
Finding A. Evaluation and Negotiation of Event Schedules Needed
Improvement                                                                  4
      Evaluating and Negotiating Event Schedules                             4
      Performance-Based Amounts Were Not Commensurate With Event
             Values                                                          8
      Contracting Personnel Need to Improve the Method of Evaluating and
             Negotiating Schedules                                          10
      Recommendations, Management Comments, and Our Response                11
Finding B. Better Information in Contracts Would Improve Contract
Administration                                                              13
      Contracting Personnel Excluded Required Administrative Information    13
      Improved Guidance and Required Training Needed                        15
      Enhanced Quality of Event Schedules Will Improve Payments             16
      Recommendations, Management Comments, and Our Response                18
Finding C. Contracting Personnel Should Verify Whether Contractors Needed
Contract Financing                                                        20
      Contracting Personnel Did Not Verify Whether Contract Financing Was
             Necessary                                                      20
      Contracting Personnel Relied on Inadequate and Inaccurate DoD
             Guidance                                                       23
      DoD May Have Incurred Unnecessary Costs and Not Received Adequate
             Consideration                                                  26
      Recommendations, Management Comments, and Our Response                30
Appendixes
      A. Scope and Methodology                                              31
             Sample Selection                                               31
             Carrying Costs and Reasonable Investment Methodology           32
             Potential Monetary Benefits                                    32
             Use of Computer-Processed Data                                 33
             Use of Technical Assistance                                    33
             Prior Coverage                                                 33
      B. List of 60 Sample Contracts                                        34
      C. Select Performance-Based Payment Schedules                         37
Management Comments
      Defense Pricing                                                       40
Introduction
Objective
Our objective was to determine whether DoD contracting personnel negotiated and
administered performance-based payment (PBP) schedules in DoD contracts in
accordance with selected Federal Acquisition Regulation (FAR) requirements.
Specifically, we determined whether DoD properly negotiated, verified, and disbursed
PBPs. See Appendix A for a discussion of our scope and methodology.

Background
The Government can provide contract financing for contractors before it accepts the
supplies or services. FAR Part 32, “Contract Financing,” prescribes the policies and
procedures for providing contract financing payments and provides the rationale for
contract financing. Specifically, FAR 32.104, “Providing Contract Financing,” states that
prudent contract financing can expedite the performance of essential contracts. It further
states that the contracting officer must:

        •    provide Government financing only to the extent actually needed for prompt
             and efficient performance;
        •    administer the contract to aid the acquisition and avoid an undue risk of
             monetary loss to the Government;
        •    monitor the contractor’s use of the contract financing provided and financial
             status; and
        •    include in the solicitation the form of contract financing that is in the
             Government’s best interest.

FAR Subpart 32.10, “Performance-Based Payments,” prescribes PBP policies and
procedures. FAR 32.1001, “Policy,” states that PBPs are the preferred type of contract
financing when the contracting officer finds them practical and the contractor agrees to
their use.

Requirements for Contract Financing
If the contracting officer determined that the contractor is eligible for PBPs,
FAR 32.1004, “Procedures,” requires the contracting officer to establish the basis for
performance on specifically described events or a measurable criterion of performance.
It also requires contracting officers to include within the contract a description of what
constitutes successful performance of the event and whether the event is severable from
or cumulative with other events. 1



1
 A severable event is independent of any other event; a cumulative event depends on the successful
completion of another event.


                                                    1
Furthermore, FAR 32.1004 requires that the total of all PBPs not exceed 90 percent of
either the contract price or the delivery item price, depending on whether the PBP basis is
the whole contract or a delivery item. It also requires that each payment be
commensurate with the value of the event. Further, the contractor would not have an
unreasonably low or negative level of investment in the contract. This would occur if the
contractors received more PBPs than incurred expenses (including overhead and profit),
which would provide them with a positive cash flow and no financial risk.

DoD Roles and Responsibilities
The Deputy Under Secretary for Acquisition Reform issued the “User’s Guide to
Performance-Based Payments,” Revision 1, November 30, 2001 (2001 guidance), which
provides specific DoD guidance for PBPs. In 2012, the Director, Defense Procurement
and Acquisition Policy, responsible for all DoD acquisition and procurement policy
matters, issued draft guidance titled, “Performance Based Payments Guide: The Better
Buying Power Initiative” (2012 draft guidance). This guidance states that it was designed
to provide assistance to users based on 15 years of PBP contracting lessons learned.

The Director of Defense Pricing is supported by the Defense Procurement and
Acquisition Policy office and reports to the Under Secretary of Defense (Acquisition,
Technology and Logistics). One responsibility of the Director of Defense Pricing is to
establish DoD financing policies. Accordingly, the Defense Pricing’s website states that
the 2012 draft guidance (issued by Defense Procurement and Acquisition Policy) will
become final after a proposed change to the Defense Federal Acquisition Regulation
Supplement becomes final.

The procurement contracting officer (PCO) is responsible for negotiating the PBP terms
with the contractor. The Defense Contract Audit Agency can provide assistance in
establishing and valuing PBP events when requested. Once the PCO and contractor
negotiate the PBP terms, the PCO includes the PBP schedule as part of the contract. The
PCO may delegate administrative responsibilities, such as PBP event verification, to the
administrative contracting officer (ACO), who is generally an employee of the Defense
Contract Management Agency (DCMA). During contract performance, the ACO verifies
successful completion of an event, and requests payment from the Defense Finance and
Accounting Service (DFAS) Columbus.

Universe and Nonstatistical Sample
DFAS Columbus Mechanization of Contract Administration Services records contained
770 open PBP contracts awarded from FY 2009 through FY 2011, with $27.9 billion in
PBP disbursements through May 16, 2012. We nonstatistically selected 60 contracts to
determine whether DoD properly negotiated, verified, and disbursed PBPs. We included
Army, Navy, and Air Force sites based on PBP disbursement amounts. The 60 contracts
included $13.2 billion in PBP events, with one PBP schedule per contract. A PBP
schedule includes all the PBP events for the contract. There were a total of 2,356 PBP
events on those schedules. Furthermore, the 60 contracts included 682 PBP
disbursements totaling $7.5 billion. DoD had not disbursed the remaining $5.7 billion of
PBP events on the 60 contracts as of May 16, 2012. See Appendix A for details on the


                                             2
sample selection. DoD purchased a variety of items on the sampled contracts, including
missiles and test flight equipment. We conducted site visits to discuss the sampled
contracts with contracting personnel at TACOM in Michigan, U.S. Army Redstone
Arsenal in Alabama, U.S. Army Aberdeen Proving Ground in Maryland, U.S. Army
Program Executive Office for Simulation, Training, and Instrumentation in Florida,
Naval Air Station Patuxent River in Maryland, Naval Air Warfare Center in Florida,
Eglin Air Force Base in Florida, and Hill Air Force Base in Utah. See Appendix B for a
list of the sample contracts.

DoD Costs to Provide Contract Financing
FAR 32.1004 states that contract financing costs the Government in terms of interest paid
by the Treasury to borrow funds to provide financing to the contractor. From January 1,
2010, through December 31, 2012, the U.S. Treasury set the interest rate at 1 percent.
Historically the rate fluctuated, rising as high as 18 percent.

Review of Internal Controls
We determined that internal control weaknesses in the award and negotiation of PBPs
existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control Program
(MICP) Procedures,” July 29, 2010. Specifically, DoD did not have adequate guidance
and training to ensure compliance with FAR and DoD requirements to negotiate and
verify PBP requests. We will provide a copy of the report to the senior official
responsible for internal controls in Defense Pricing.




                                            3
Finding A. Evaluation and Negotiation of
Event Schedules Needed Improvement
DoD contracting personnel 2 did not properly evaluate and negotiate PBP schedules.
Specifically, for the 60 PBP schedules reviewed, they did not:

        •    establish appropriate events for 1,807 out of 2,356 events on 57 approved PBP
             schedules. This occurred because DoD guidance was inadequate and DoD
             contracting personnel needed specific PBP training. Therefore, DoD contracting
             personnel either misunderstood or were not aware of the FAR requirements for
             defining the performance events that allowed payment to the contractor. In the
             absence of thorough DoD policy and adequate training, contracting personnel did
             not scrutinize the contracts but accepted contractor-provided PBP schedules.

        •    determine whether the event value fairly represented contract performance for
             PBP events on 44 schedules. This occurred because DoD contracting personnel
             generally did not use either contractor-provided cost expenditure data or other
             independent confirmation when they valued the PBP amounts. Instead, DoD
             contracting personnel generally relied on the contractor to establish the value of
             the PBP events.

As a result, DoD contracting personnel put DoD at risk of making advance payments
totaling $11.4 billion for 57 of the 60 contracts reviewed. Also, they did not receive
contract performance commensurate with the value of the payments that DoD made. In
these instances, DoD provided a more favorable level of financing than required by the
FAR. DoD could reduce financial risk by evaluating and renegotiating current PBP
schedules when the schedule values do not accurately represent the cost of the events.

Evaluating and Negotiating Event Schedules
DoD contracting personnel included numerous inappropriate performance events in their
evaluation and negotiation of PBP schedules. These errors resulted from inadequate
guidance and training, as well as overreliance on contractor-provided PBP schedules.

Contracting Personnel Included Inappropriate
Performance Events
DoD contracting personnel included 1,807 inappropriate events out of 2,356 total events
reviewed in 57 of the 60 PBP schedules. Specifically, contracting personnel included
events for purchase orders, passage of time, Government acceptance, kickoff meetings,
postaward conferences, and starting tasks. However, FAR Subpart 32.10 states that these
are inappropriate performance events.




2
    Contracting personnel could include the PCO, a contract specialist, or other qualified contracting officials.


                                                         4
Instead, FAR Subpart 32.10 states that PBP events must represent meaningful efforts or
actions and must be an integral and necessary part of contract performance. In addition,
the FAR states that the basis for an event should be either specifically described events or
a measurable criterion of performance. For example, contract N61340-11-C-0006
identified well-negotiated events that represented meaningful efforts that were integral
and necessary for contract performance. That is, for the majority of tactical flight trainer
events, the contracting officer linked the PBP event schedule to particular engineering
events required during contract performance. For example, the events were for a
preliminary design review, critical design review, and various stages of completion.

Table 1 lists the type of inappropriate events, how often the inappropriate events
occurred, and dollar amounts associated with the events.

                                  Table 1. Inappropriate Events
                                                   Number of                           Amount
        Inappropriate Event
                                            Schedules        Events                  (in millions)
 Purchase order                                44             274                     $644.9
 Monthly payment/passage of time               18          1,415                     10,852.0
 Government acceptance                          9              67                        18.0
 Kickoff meeting/postaward                     27             216                       419.7
 conference/“entry” event
    Total                                       57(1)            1,807(2)          $11,389.9(2)
       1
        Does not add up because some schedules contained multiple inappropriate events.
       2
        Does not add up because some events contained multiple issues.

Purchase Orders Are Not Appropriate Events
DoD contracting personnel inappropriately established 44 PBP schedules that included
the placement of purchase orders for 274 PBP events valued at $644.9 million. For
example, contract W56HZV-09-C-0311 contained a PBP schedule that included 14 PBP
events totaling $27.3 million for the placement of material purchase orders for mine
resistant ambush protected vehicles. These events totaled 43.6 percent of the total
contract value. See Appendix C for additional PBP schedules that included the
placement of purchase orders as an event.

FAR 32.1004 explicitly prohibits the signing of contracts or modifications as PBP events
because these events do not represent any meaningful efforts or actions. The placement
of purchase orders constituted the signing of contracts with subcontractors and, therefore
the FAR considered the events inappropriate.

DoD contracting personnel stated that they were unaware that the FAR prohibited the
placement of purchase orders as a payment event. The contracting personnel generally
stated that they included the event because the contractor provided funding to the vendors
when they placed the purchase orders. However, they did not have documentation to
support that the contractor provided funding when they placed the purchase order.




                                                 5
If the contractor provided funding to the subcontractor before work was performed, this
could be considered an advance payment. DoD is not permitted to make advance
                                                        payments unless specifically
        If the contractor provided funding to the       authorized by statute. In addition,
    subcontractor before work was performed, this       some contracting personnel stated
       could be considered an advance payment.          that they included the purchase
                                                        orders as an event because the
contractor performed some work when placing the purchase orders, and they wanted to
compensate the contractor for the incurred costs.

Monthly Payments or Passage of Time Are Not Appropriate Events
DoD contracting personnel inappropriately established 1,415 PBP events for monthly
payments or passages of time for 18 contracts valued at $10.9 billion. For example,
contract W58RG7-09-C-0147 contained 42 PBP events, valued at $187.6 million, for
recurring or sustaining efforts required to support the overall new build for the Apache
Block III helicopter for Taiwan. Contracting personnel based the successful completion
of these events on the completion of 1 month’s effort, and the PBP schedule ensured that
the contractor would receive monthly payments from October 2009 through June 2012.

FAR 32.1004 explicitly prohibits payments based on the passage of time because these
events do not represent meaningful efforts or actions. Contracting personnel stated that
they provided contract financing monthly because the contractors incurred costs during
that time. (See Figure C-1 in Appendix C for this example.) However, a payment policy
that provides contract financing solely on the basis of costs without consideration as to
meaningful events is more in line with progress payment financing, which reimburses
contractors’ costs regardless of successful performance.

Government Acceptance of Goods or Services Is Not an
Appropriate Event
DoD contracting personnel inappropriately established Government acceptance of goods
or services as PBP events for nine contracts valued at $18.0 million. In sample contract
W56HZV-09-C-0311, contracting personnel improperly established a schedule that
included 23 PBP events, totaling $9.6 million, for delivery and Government acceptance
of bar armor kits for the mine resistant ambush protected vehicles. DFAS disbursed
$5.0 million related to 12 of the 23 events because the ACO approved that the contractor
successfully completed the events. DFAS did not pay the remaining 11 events because
the newly assigned ACO recognized that contracting personnel should not have included
acceptance as an event and did not approve these PBP events. (See Figure C-2 in
Appendix C for additional examples of Government acceptance.)

FAR 32.1001, “Policy,” states that PBPs are not payment for accepted items. The
DCMA Instruction for PBPs, section 1.2.1, provides additional guidance and states that
the ACO should not use the Government acceptance of goods and services as an event or
criterion for PBPs. Therefore, contracting personnel should not include the acceptance of
contracted goods and services as PBP events.



                                            6
Kickoff Meetings, Postaward Conferences, and Entry Events Are Not
Appropriate Events
DoD contracting personnel inappropriately included 216 kickoff meetings, postaward
conferences, and “entry” events 3 as PBP events for 27 contracts totaling $419.7 million.
According to DoD contracting personnel, they used kickoff meetings or postaward
conferences to discuss the logistics of executing the contract and to ensure contractor
performance. In sample contract FA8675-10-C-0014, for the purchase of air-to-air
missiles, contracting personnel included 11 events for a postaward review totaling
$137.8 million, or 29.2 percent of the total PBP value. Contracting personnel approved
these 11 events because each postaward review related to a different subcontractor. In
addition, contract W56HZV-09-C-B014 for Marauder vehicles included five events,
valued at $673,249, for starting the assembly of the vehicles. (See Figures C-2 and C-3
in Appendix C for examples of PBP schedules that use “entry” as a PBP event.)

The FAR does not explicitly prohibit the use of kickoff meetings, postaward conferences,
or “entry” event as PBP events. However, these events do not meet the FAR 32.1004
requirement that the events represent meaningful efforts or actions and be integral to
contract performance. To meet the FAR criteria, the entry should include definite
entrance criteria that require successful completion of other events or tasks necessary to
begin the event process. Without this description, this type of event would not represent
meaningful work.

DoD contracting personnel stated that they included these types of events because the
contractor had incurred costs before the meetings, including proposal and negotiation
costs as well as costs to actually start the event. Therefore, they structured the PBP event
to provide financing soon after the contract award. However, this approach was more in
line with progress payments, which provide financing based solely on contractor costs,
not PBPs.

Inadequate Guidance and Training Resulted in Overreliance on
Contractor-Provided Data
Because of the inadequate guidance and training related to defining events, the
contracting personnel did not properly review the contractor’s proposal and often relied
on the contractor to provide the PBP schedules. Specifically, of the 60 sample contracts,
the contractor initially proposed the PBP schedule for 50 contracts. Contracting
personnel often accepted the initial proposals with little to no investigation or revision.
DoD needs to improve guidance on appropriate PBP events and require DoD contracting
personnel to take PBP training.

DoD Guidance on Appropriate Events Needed Improvement
DoD guidance was not adequate for contracting personnel to negotiate only appropriate
PBP events. Specifically, the guidance was inadequate because it did not prohibit the
placement of purchase orders as PBP events. Although the 2001 guidance states that


3
    An “entry” event is the start of a task—for example, starting training or starting production.


                                                         7
events such as “signing the contract” or “exercising an option” were not appropriate PBP
events, it did not specifically state that signing purchase orders was similar to signing a
contract and therefore not appropriate. In addition, the 2012 draft guidance states that
ordering of parts is not generally a good PBP event. It also states that contracting
personnel may use purchase orders as an early PBP event “if there are no more
meaningful events in that time period.” However, this guidance conflicts with the FAR
criteria that the signing of contracts is not an appropriate event.

DoD guidance also needed improvement to ensure that contracting personnel did not
include kickoff meetings, postaward conferences, and entry events as PBP events.
Specifically, the 2001 guidance and 2012 draft guidance do not specifically state that
kickoff meetings, postaward conferences, and entry events are not appropriate. The
2012 draft guidance states that structuring an event to be the start of an effort falls short
of FAR requirements and may not represent meaningful work; however, contracting
personnel need additional, detailed guidance. The guidance also fails to highlight that the
purpose of PBP financing is not to provide funding solely because the contractor incurred
costs. Rather, it should be tied to specific, measurable, appropriate events. As discussed
above, this is an important distinction because several contracting officers were
structuring their PBP events to provide contractors compensation for their incurred costs.

Therefore, the Director, Defense Pricing, should ensure that guidance states that
contracting personnel only include meaningful events and prohibits purchase orders,
passage of time, Government acceptance, kickoff meetings, postaward conferences, and
entry events as PBP events. In addition, the guidance should state that the purpose of
PBP financing is not to provide funding solely because contractors incurred costs.
Rather, it should be tied to specific, measurable, appropriate events.

Improved Training on PBP Events
The contracting personnel were unaware of the criteria for establishing PBP events. For
example, they were unaware that the FAR prohibits purchase orders as events and some
of them stated they included Government acceptance as events because they were not
aware of the FAR requirements. The lack of awareness of FAR criteria was in part
because 63 of the 87 contracting personnel interviewed had not taken any PBP-specific
training. Therefore, the Director, Defense Pricing, should require that contracting
personnel involved in establishing PBP schedules take training that includes a discussion
on purchase orders, passage of time, Government acceptance of goods or services,
kickoff meetings, and postward conference and entry events, which are not appropriate
criteria or events. In addition, the training should emphasize that the purpose of PBP
financing is not to provide funding solely because the contractor incurred costs. Rather,
it should be tied to specific, measurable, appropriate events.

Performance-Based Amounts Were Not Commensurate
With Event Values
DoD contracting personnel did not verify that PBP amounts were commensurate with the
value of the defined event for 44 of 60 PBP schedules, as required by the FAR. DoD
contracting personnel could have obtained an expenditure profile or other independent


                                             8
assessment to determine whether the PBP amounts were commensurate with the event
value. An expenditure profile is one way to provide the DoD contracting personnel
insight into the contractor’s actual costs and assist in the negotiation of the PBP event
amounts. However, for 42 contracts, contracting personnel did not request an
expenditure profile or other independent assessment of PBP values.

Contract W56HZV-09-C-B014 for Marauder vehicles provided an example of events that
likely were not commensurate with the work performed. Specifically, DoD contracting
personnel established an event for the start of vehicle assembly, valued at 12 percent of
the contract price, with no rationale to support the value of the event. This event was not
likely commensurate with the PBP amount because DoD contracting personnel paid the
contractor for starting assembly rather than when assembly was complete. An
expenditure profile could have assisted DoD contracting personnel in determining
whether the value of this event was commensurate with the PBP amount. See Figure C-3
in Appendix C for an additional example of a PBP event and amount that is not
representative of its value.

Relying on the contractor’s independent estimate with no additional analysis can be
inherently risky. Although contracting personnel obtained and used the contractor’s
expenditure profile during PBP negotiations for contract W31P4Q-11-C-0001, they did
not perform any analysis of the expenditure profile. For this contract, the contractor’s
                                                            actual incurred cost data were
   Although contracting personnel obtained and used         usually 20 percent lower than
    the contractor’s expenditure profile during PBP         the contractor’s estimated
   negotiations, they did not perform any analysis of       expenditure profile. For
                 the expenditure profile.                   example, the contractor had
                                                            cumulative costs and profit of
$325.3 million for January 2012; however, according to the contractor’s estimated
expenditure profile, the incurred costs plus profit for January 2012 was $271.0 million.
Therefore, the PBP values defined in the beginning of the contract did not match the
actual cost of work performed.

The FAR requires that PBPs be commensurate with the value of the contractor
performance. Specifically, FAR 32.1004 states that the contracting officer is to ensure
that PBP amounts are commensurate with the value of the performance event or
performance criterion, and the contracting officer may request expenditure profile
information. The FAR further states that the contracting officer may establish
performance-based amounts on any rational basis, including but not limited to
engineering estimates of stages of completion, engineering estimates of hours expended
to complete the event, or the estimated projected costs of performance of particular
events.

Enhanced Guidance for Determining Performance-Based Amounts
DoD contracting personnel did not obtain accurate data to validate that the PBP was
commensurate with the value of the defined event for 44 of 60 schedules because the
DoD guidance was inadequate. Specifically, the 2001 guidance states that contracting


                                             9
officers should establish event values that are commensurate with the approximate value
of the progress. In addition, contracting officers were not to structure the event values as
advance payments. However, the guidance did not provide any instructions on how the
contracting officer could accomplish those goals.

The 2001 guidance states that the growing reliance on price-based acquisition techniques
could result in the Government not knowing when the contractor would incur costs
during the contract. Therefore, the parties had to arrive at PBP values that represented a
businesslike approximation of the contractor’s financing needs. This guidance needed
clarification because it did not provide any specific steps that the contracting officer
could follow. In addition, the 2001 guidance is silent on assigning PBP amounts based
on engineering estimates, which the FAR allows.

The 2012 draft guidance requires that the contracting officers obtain a copy of the
contractor’s expenditure profile. The guidance also requires the contracting officers to
provide an analysis of whether the expenditure profile is reasonable. This is an
improvement upon the 2001 guidance. However, the 2012 draft guidance does not
include the other ways the FAR states to assess the event value, such as use of
engineering estimates and other independent estimates of event value. The Director,
Defense Pricing, should issue guidance that includes a discussion of what DoD
contracting personnel should request, whether an expenditure profile or other
independent data, to verify that PBP amounts are commensurate with the value of the
events. Further, if contracting personnel request an expenditure profile, the guidance
should state that the contracting personnel need to review its accuracy.

Contracting Personnel Need to Improve the Method
of Evaluating and Negotiating Schedules
DoD contracting official actions put the Government at risk of making advance
payments, totaling $11.4 billion, for 57 of the 60 contracts reviewed, and DoD did not
receive a commensurate amount of contract performance for the payments made to the
contractor. In these instances, DoD provided a more favorable level of financing than
authorized by the FAR. DoD could reduce its risk by evaluating and renegotiating
current PBP schedules if they do not accurately represent the cost of events.

When DoD awarded PBPs for more than the value of the work performed, DoD
unnecessarily increased its financial risk. The FAR provides that DoD take title to all
contractor work-in-progress when they make PBPs, which mitigates DoD’s financial risk.
However, when contracting personnel negotiated the PBPs for more than their value or
established an event for which the contractor had not completed work, they might have
inadvertently set up an advance payment. According to the FAR, advance payments are
the least favorable type of contract financing and, if used, the contracting officer would
need to obtain adequate financial security from the contractor. Therefore, when
contracting personnel structured the PBP events so that the payment amounts were more
than the work performed, DoD would not obtain additional security for the financing
provided in excess of the contractor’s work, and DoD would not have title to the work the
contractor had not started.


                                             10
FAR 32.1001 states that PBPs are fully recoverable in the event of default, and the
Government has title to all work-in-progress. However, if the event value was not
commensurate with the work-in-progress, the Government would be unable to take
possession of anything commensurate with these payments because the contractor would
not have performed sufficient work. For example, in contract W56HZV-09-C-0311,
which included 14 PBP events totaling $27.3 million for the placement of material
purchase orders, the contractor did not have possession of the material. Therefore, there
was a financial risk to the Government if it paid for material that was not controlled by
the contractor.

The Director, Defense Pricing, should direct DoD contracting personnel to review all
open PBP contracts to verify that the PBP amounts fairly represent the event values. If
the PBP amounts are significantly higher than the contractor’s costs or engineering
estimates, contracting personnel should consult their legal advisors to consider available
corrective actions, including renegotiating the PBP values to ensure that they are not
providing advance payments.

Recommendations, Management Comments, and Our
Response
A. We recommend that the Director, Defense Pricing:

       1. Issue guidance that:

            a. Includes only the use of meaningful events and prohibits the use of
purchase orders, the passage of time, acceptance of end items, kickoff meetings,
postaward conferences, and entry events as acceptable performance events.

              b. States that the purpose of performance-based payment financing
is not to provide funding solely because the contractor incurred costs. Rather, it
should be tied to specific, measurable, appropriate events.

             c. Establishes a requirement that DoD contracting personnel request
a contractor estimate of expenditures or other independent data to verify the
performance-based payment events and amounts before approving the
performance-based payment schedule. In addition, the guidance should require
contracting personnel to review any expenditure profile data obtained.

             d. Directs DoD contracting personnel to review open performance-
based payment contracts with significant event values remaining to determine
whether the performance-based payment amounts fairly represent event values. If
the amounts do not represent the event value, contracting personnel should consult



                                            11
their legal advisors to assess available corrective actions, including renegotiation of
the performance-based payment amounts to comply with Federal Acquisition
Regulation requirements.

Defense Pricing Comments
The Director, Defense Pricing, agreed and stated that his office will issue guidance
addressing the topics contained in the recommendation. In a conversation subsequent to
receiving management comments, Defense Pricing personnel stated that their office will
issue guidance with an estimated completion date of September 2013.

Our Response
Comments from the Director, Defense Pricing on Recommendations A.1.a through A.1.d
were responsive, and no additional comments are required.

      2. Develop a performance-based training program that includes a discussion
of appropriate performance-based payment events and require all DoD contracting
personnel involved in the negotiation and award of performance-based payments to
participate in the program. The training should specifically prohibit purchase
orders, kickoff meetings, postaward conferences, entry events, passage of time, or
the acceptance of end items as events.

Defense Pricing Comments
The Director, Defense Pricing, agreed and stated that the Defense Acquisition University
recently deployed a 4-hour continuous learning module on PBPs and the value of cash
flow. He also stated that he will direct contracting personnel to complete this continuous
learning module as part of their continuous learning requirement effective FY 2014.

Furthermore, the Defense Acquisition University has developed an 8-hour lesson on
PBPs that reinforces the information in the continuous learning module and also includes
a two-part workshop that addresses the cited topics in this report. This lesson segment is
currently a required course for Level II certification under the Defense Acquisition
Workforce Improvement Act. In addition, the Director stated that this lesson, effective
FY 2014, will be a required course for Level I certification, so contracting personnel will
receive this training at the beginning of their appointment to contracting.

Our Response
Comments from the Director, Defense Pricing, on Recommendation A.2 were responsive,
and no additional comments are required.




                                            12
Finding B. Better Information in Contracts
Would Improve Contract Administration
DoD contracting personnel did not include required administrative information that
would have allowed responsible contracting personnel to properly administer PBPs.
Specifically, for 46 of 60 PBP schedules, contracting personnel did not:

   •   include clearly defined success criteria for contractor performance as required by
       the FAR in 33 schedules,
   •   identify PBP events as either severable or cumulative as required by the FAR in
       23 schedules, and
   •   specify completion dates for contractor performance as required by DoD guidance
       in 21 schedules.

These omissions occurred because DoD contracting personnel did not:

   •   determine whether the contractor-proposed event schedules met the specific FAR
       requirements,
   •   receive clear guidance related to the PBP contract financing award process for
       defining success criteria and a severable or cumulative event, and
   •   perform adequate reviews of PBP events because contracting personnel had not
       taken training specific to FAR requirements for PBP contract financing.

As a result, DoD contracting personnel could not readily determine whether the
contractor performance was sufficient for payment. Therefore, ACOs had less
information than needed when they determined whether the contractor successfully
completed the PBP event. This put the Government at risk of making full payments for
less than full contractor performance.

Contracting Personnel Excluded Required
Administrative Information
DoD contracting personnel did not include required administrative information so that
personnel could properly administer PBP events. Contracting personnel established PBP
schedules that excluded appropriate performance success criteria, whether PBP events
were severable or cumulative, and estimated completion dates. Contracting personnel
must include this information in the PBP schedule so that the ACO can properly
administer PBPs. Table 2 provides a summary of the 46 of 60 PBP schedules with
missing or inadequate PBP event information.




                                           13
            Table 2. Missing or Inadequate Information in PBP Schedules
        Missing or Inadequate Element                 Number of Schedules
      Verifiable success criteria                            33
      Severable or cumulative                                23
      Estimated event completion                             21

Verifiable Success Criteria
DoD contracting personnel did not properly identify clearly defined success criteria for
contractor performance for 33 schedules. For example, contracting personnel identified
six events (ranging from requirements loaded into the system, to placement of 80 percent
of purchase orders, to beginning of testing) with success criteria of “contractor
                                                  certification submitted to DCMA
     This success criterion was inadequate        ACO.” This success criterion was
    because it did not provide a description      inadequate because it did not provide a
    of what constituted success, just that the    description of what constituted success,
     contractor certified it was successful.      just that the contractor certified it was
                                                  successful. For other sample contracts,
contracting personnel did not include any event success criterion. See Figure C-2 in
Appendix C for an additional example of the exclusion of success criteria.

FAR 32.1004 requires that contracting officers describe what constitutes readily
verifiable successful event performance. Examples of success criteria that comply with
the FAR are the specific engineering requirements included in contract
N61340-11-C-0006. For example, for the System Requirements Review event,
contracting personnel required that the contractor obtain written concurrence that
addressed all requirements in the technical approach, and the Government accepted all
the requirements; the contractor mitigated all risks to the satisfaction of the Government,
executed the program schedule within the anticipated cost and technical risks, and
properly staffed the program.

Severable or Cumulative Events
DoD contracting personnel did not properly identify whether the PBP events were
severable or cumulative for 23 schedules reviewed. For example, contract
FA8223-09-C-0009, for C-5 maintenance and aircrew training systems, identified all
42 events as cumulative but did not identify how each event depended on other events.
Specifically, contracting personnel identified event three (critical design review) as
cumulative but did not identify that event three was dependent on the completion of event
two (preliminary design review). For other sample contracts, contracting personnel did
not identify any events as either severable or cumulative. See Figure C-2 in Appendix C
for an additional example of excluding the severable or cumulative identity of a PBP
event.




                                            14
FAR 32.1004 states that the contracting officer must identify each event as either
severable or cumulative. A severable event is independent of any other event.
Conversely, a cumulative event depends on the successful completion of another event.
If the contract identifies the event as cumulative, FAR 32.1004(a)(2) requires that it also
identify the prior event on which it depends.

Estimated Event Completion
DoD contracting personnel did not identify when the contractor should complete PBP
events for 21 schedules reviewed, as outlined in DoD guidance. The 2001 guidance
states that parties (the PCO and contractor) need to identify when events are expected to
occur in the event schedule. When the PCO included the estimated event completion
date in the event schedule, the ACO would have more information to make a proper
decision about whether the contractor successfully completed the event. See Figure C-2
in Appendix C for an additional example of excluding the estimated event completion
date.

Improved Guidance and Required Training Needed
DoD contracting personnel did not include clear instructions for administering PBP
events because DoD guidance was unclear, and contracting personnel had generally not
taken PBP-specific contract financing training. Without training on the guidance, DoD
contracting personnel were unaware of the FAR requirements for including success
criteria and specifically identifying severable and cumulative events. Accepting the
contractor’s event schedules without ensuring compliance with the FAR was improper
because DoD contracting personnel, not the contractor, were ultimately responsible for
complying with FAR and DoD requirements.

Guidance Needed Clarification
DoD guidance related to PBP event success criteria and severable versus cumulative
events needed clarification. Specifically, the 2001 guidance provides a brief definition of
severable and cumulative events and description of success criteria. However, the
guidance did not emphasize the importance of what a severable or cumulative event was
and how and when a PBP event was successfully completed. The 2012 draft guidance has
the same language for severable and cumulative events as in the 2001 guidance and does
not provide examples of good success criteria. Therefore, the Director, Defense Pricing,
needs to update the 2012 draft guidance to better define how and when a PBP event is
successfully completed and provide examples of a severable or cumulative event. The
Director also needs to distribute this guidance to all DoD contracting commands. As part
of this guidance, Defense Pricing personnel should update the PBP contract financing
checklist for the required event information.

PBP Training Needed
Contracting personnel should take PBP training to ensure compliance with FAR
requirements. Of the 87 DoD contracting personnel interviewed, 24 stated they took
elective PBP training. DoD guidance did not require any PBP-specific training, and the
remaining 63 contracting personnel interviewed had not taken any PBP-specific training.



                                             15
DoD contracting personnel indicated that PBP training would be helpful, as some lacked
knowledge about a severable or cumulative event or successful performance criteria.

During the time the DoD contracts were awarded, the Defense Acquisition University
offered an hour-long training course that provided a brief overview of PBP contract
financing, which was based on the 2001 guidance. In addition, DoD contracting
personnel took contracting classes that included only a brief section on PBP contract
financing. However, DoD contracting personnel need more than just a brief overview of
PBP contract financing, in order to adequately follow PBP requirements outlined in the
FAR and Defense Pricing guidance. DoD contracting personnel involved in the
establishment of PBP schedules need training in PBP contract financing that includes a
discussion on the importance of adequate success criteria and the difference between a
severable and cumulative event and the benefit of including estimated completion dates.

Enhanced Quality of Event Schedules Will
Improve Payments
Without required event information in the contract, DoD contracting personnel could not
                                                 readily determine whether the
      Without complete and clearly defined       contractor performance was sufficient
   performance payment requirements, DoD         for payment. There were 46 contracts, 4
    was at risk of making full payments when     with PBPs valued at $10.6 billion,
        contractor performance was not           where the ACO had insufficient PBP
             successfully completed.             event performance criteria available.
                                                 Without complete and clearly defined
performance payment requirements, DoD was at risk of making full payments when
contractor performance was not successfully completed. The following examples
highlight how ACOs approved PBP events without sufficient information.

Adequacy of Success Criteria
If the contract did not adequately identify the success criteria, the ACO would not have
enough information to determine whether the event was successfully completed. For
example, one PBP schedule stated that the success criteria and verification method for
determining that the contractor received materials would be contractor documentation
validating the units were in stock and available for use. The ACO stated that they asked
to perform physical verification of the items, but the contractor denied the request
because verification was not required by the event schedule. The ACO stated that they
then raised the issue to the organization’s command level; ultimately, the contractor
agreed to let the ACO perform a physical review. However, performing physical
verification was difficult because of the event schedule wording. The ACO therefore
ensured that the next contract included criteria in the PBP schedule that required the
contractor to allow the ACO to perform physical inspection.



4
 This number is less than the individual errors because one contract could be missing more than one
element.


                                                   16
Additionally, in this example, the physical inspection that was eventually performed
identified that several events did not meet the verification criteria per the PBP event.
                                                          Specifically, the ACO noted
        This example showed that detailed PBP             “suspect hardware” related to the
         success and verification criteria could          event and therefore rejected the
     decrease the Government’s risk of paying the         event until the contractor resolved
    contractor before successful event completion.        the issue. This example showed
                                                          that detailed PBP success and
verification criteria could decrease the Government’s risk of paying the contractor before
successful event completion.

In another example, the PBP schedule did not include event success criteria and the
ACO’s verification method. This resulted in both the contractor and the ACO potentially
making uninformed decisions about whether the contractor successfully completed an
event. Specifically, the contractor provided the following in e-mail format as support for
the successful completion of an event: “Based on the physical completion (7-8 April
2010) and the submitted CDRL [contract data requirements list] … with detailed attendee
list I feel that this constitutes completion of Milestone [event] #1.…” He continued, “As
the Project Manager for this effort with in-depth knowledge of the engineered solution,
schedule, current progress, and the way forward, I certify to the best extent of my
knowledge that Milestone [event] #1, “Start Training” has been accomplished. …” In
addition, the Government project director stated that because the bi-weekly slides showed
the contractor was currently testing the item, the contractor must have completed the
production event. The absence of success criteria resulted in both the contractor and the
ACO making a judgment without all necessary information, therefore putting DoD at risk
when the ACO approved the PBP event without the success anticipated.

Event Completion Dates Can Help Determine Successful Event
Performance
If the contract includes PBP event completion dates, the ACO can use that information to
readily determine if the contractor successfully completed the PBP event by comparing
the actual completion date with the scheduled completion date. This is effective,
however, only when contracting personnel based the scheduled completion dates on
realistic performance levels required for successful contract completion. For example, a
revised PBP schedule for sonobuoys 5 included estimated PBP event completion dates as
“no later than” dates. However, the estimated period of performance of up to 5 months
far exceeded the actual completion period of 1 day. Specifically, the contractor
submitted a payment request, representing 50 percent of the PBP schedule value, for an
event completed 5 months before the PBP estimated “no later than” completion date.




5
 Sonobuoys are noncommercial, aircraft-launched, expendable floating devices used to detect acoustic
emissions or reflections from potentially hostile submarines; the sonobuoys then transmit those signals to
U.S. Navy airborne antisubmarine warfare forces.


                                                    17
The ACO verified that the payment request amount matched the PBP event amount but
did not question why the contractor completed the event 5 months before the estimated
date. Had the ACO reviewed the difference in dates to determine why the contractor was
able to complete the event so much sooner than anticipated, this information could have
been used to ensure the performance level for this and other events was appropriate for
the scheduled events.

In summary, as shown in the examples, without adequate information in the PBP
schedules, DoD was at risk for paying for potentially inadequate contract performance, as
the ACO was making decisions without all pertinent information.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director, Defense Pricing:

   1. Update 2012 draft guidance that:

           a. Defines how and when a performance-based payment event is
successfully completed,

           b. Defines what comprises a severable or cumulative event, and

          c. Updates the contract financing checklist to ensure the entire
required event elements are included in the performance-based payment schedule.

Defense Pricing Comments
The Director, Defense Pricing, agreed and stated that his office will update the 2012 draft
“Performance Based Payments Guide – The Better Buying Power Initiative” to address
the issues cited before releasing for final publication. In a conversation subsequent to
receiving management comments, Defense Pricing personnel stated that their office will
update the guidance with an estimated completion date of September 2013.

Our Response
Comments from the Director, Defense Pricing, on Recommendations B.1.a through B.1.c
were responsive, and no additional comments are required.

   2. Develop a performance-based payment contract financing training program
      that:

          a. Includes a discussion on successful completion criteria, severable and
cumulative events, and the need for estimated event completion dates tailored to
performance levels required for contract completion, and

           b. Is required of all DoD contracting personnel involved in the
negotiation, award, and administration of performance-based payments.


                                            18
Defense Pricing Comments
The Director, Defense Pricing, agreed and stated that the Defense Acquisition University
recently deployed a 4-hour continuous learning module on PBPs and the value of cash
flow. He also stated that he will direct contracting personnel to complete this continuous
learning module as part of their continuous learning requirement effective FY 2014.

Furthermore, the Defense Acquisition University has developed an 8-hour lesson on
PBPs that reinforces the information in the continuous learning module and also includes
a two-part workshop that addresses the cited topics in this report. This lesson segment is
currently a required course for Level II certification under the Defense Acquisition
Workforce Improvement Act. In addition, the Director stated that this lesson, effective
FY 2014, will be a required course for Level I certification, so contracting personnel will
receive this training at the beginning of their appointment to contracting.

Our Response
Comments from the Director, Defense Pricing, on Recommendation B.2.a and B.2.b were
responsive, and no additional comments are required.




                                            19
Finding C. Contracting Personnel Should Verify
Whether Contractors Needed Contract Financing
DoD contracting personnel negotiated and awarded contracts that authorized PBPs without
appropriately verifying the contractors’ contract financing need or level of investment in the
contract for 60 of the 60 sample contracts.

This occurred because DoD provided inaccurate and inadequate guidance related to PBP usage
and valuation criteria. Specifically, the guidance:

      •    did not specify which contract financing method was preferred or define reasonable
           contractor investment,
      •    misrepresented the FAR requirement that PBPs be provided only to the extent necessary,
           and
      •    indicated that including profit in the PBP amounts was acceptable.

As a result, there was increased risk that a portion of the $28.8 million in carrying costs
associated with the $7.5 billion in PBPs that DoD paid contractors for the sample contracts
should not have been paid but instead could have been put to better use. Furthermore, if the
same issues applied to the $15.8 billion in disbursements for other open PBP contracts, a portion
of the calculated $88.8 million in carrying costs might have been put to better use. Specifically,
we calculated that DoD included between $2.9 million to $3.3 million in profit carrying costs for
the sample contracts. This amount could be between $5.3 million and $12.8 million for the
remaining contracts. 6 Further, if DoD ensured that the contractor had a reasonable level of
investment in the contract, DoD could have saved between $1.0 million and $20.1 million of
additional carrying costs. In addition, by automatically including PBP financing at the beginning
of the contract, contracting personnel limited DoD’s ability to ensure it received adequate
consideration.

If contracting personnel ensured that PBP event values did not include profit and that contractors
had a reasonable level of investment, the Government could realize potential monetary benefits
from between $13.6 million and $53.3 million over the next 5 years related to reduced carrying
costs. Costs could be reduced by an additional amount if contracting personnel verified whether,
and to what extent, contractors should receive financing payments before contract award.

Contracting Personnel Did Not Verify Whether Contract
Financing Was Necessary
DoD contracting personnel did not comply with the FAR by verifying each contractor’s need for
contract financing before negotiating and including the PBP schedules in contracts. Specifically,
when DoD contracting personnel considered the use of PBPs, they did not first determine
whether the contractor could obtain private contract financing at a reasonable rate, whether the


6
    See Appendix A for the calculation.


                                                 20
contract fit within the minimum requirements for contract financing, and to what extent the
contractor needed financing to complete the contract successfully, as required by the FAR.
Table 3 shows a breakout of the specific FAR requirements that contracting personnel did not
consider for 60 of the 60 contracts.

                 Table 3. Financing Requirements That Were Not Considered
                                Requirement                                 Number of Contracts
           Private financing available                                             60
           Under the FAR timeframe and dollar value threshold                      11
           Need of contract financing and level of investment                      60

Determination of Non-Government Financing
Contracting personnel did not determine whether the contractor could obtain private financing
for 60 of 60 contracts reviewed, as required by the FAR. FAR 32.106 states that the contracting
officer must consider private financing, as long as the private financing terms are reasonable and
are not from other agencies. 7 If private financing is not available to the contractor at reasonable
                                                 rates, the Government may then consider using
    DoD contracting personnel provided a         customary contract financing, with PBPs being
     top 10 contractor with $4.2 billion in      the preferred customary contract financing, if
        PBP contract financing without           applicable. Contracting personnel did not
      determining whether that contractor        determine whether the contractors could obtain
  could obtain non-Government financing. private financing despite the Government
                                                 awarding 35 of the 60 contracts to the 10 largest
                   8
DoD contractors. For example, DoD contracting personnel provided a top 10 contractor with
$4.2 billion in PBP contract financing without determining whether that contractor could obtain
non-Government financing. Based on the volume of work performed by that contractor and the
other nine, it could be possible for some of them to obtain private financing.

Contracts Did Not Meet Required Timeframe or Dollar Value
Threshold for Contract Financing
DoD contracting personnel awarded PBP financing on 11 contracts that did not meet the
minimum standard to receive any contract financing. For example, on one contract, contracting
personnel inappropriately provided PBP financing to a contractor where the negotiated contract
price was $250,000, which was 10 percent of the FAR minimum requirements. Contracting
personnel justified the use of PBP financing because the contractor had performed some work on
the contract before contract award.

The FAR provides minimum requirements for providing PBPs to contractors. Specifically,
FAR 32.104 states that the contracting officer may provide PBP contract financing if the
contractor will not be able to bill for the first delivery of products for a substantial time after the
contractor begins work (usually 6 months or more) and the contract price is $2.5 million or



7
  The FAR states that the contracting officer can make case-by-case exceptions if they are in the Government’s best
interest.
8
  Top 10 contracts were determined based on amounts DoD obligated to the contractors throughout FY 2011.


                                                        21
more. 9 Therefore, contracting personnel should not award PBP financing on contracts that do
not meet this minimum standard.

Contracting Personnel Did Not Provide Contract Financing Only to the
Extent Necessary or Require a Reasonable Contractor Investment
DoD contracting personnel did not verify whether the PBP financing amounts provided for
60 contracts were in accordance with FAR requirements. FAR 32.104 states that contracting
officers should provide financing only to the extent actually needed for prompt and efficient
performance, considering the probable impact on working capital or the predelivery expenditures
and production lead times. In addition, FAR 32.1004 requires that the PBPs reflect prudent
contract financing; that is, provided only to the extent needed for contract performance and not to
exceed 90 percent of the acquisition. Finally, FAR 32.1004 states that PBP amounts are not
expected to result in an unreasonably low or negative level of contractor investment in the
contract. In simpler terms, this means the contracting officer should ensure that the contractor
assumes some level of financial risk in the contract. In addition, FAR clause 52.232-28 states
that the contractor’s proposal of PBP financing is to include information addressing its
investment in the contract. The FAR does not specify what information the contractor should
include related to its investment.

Specifically, contracting personnel did not verify how much contract financing the contractor
needed, or whether the contractor had a reasonable level of investment. Instead, contracting
personnel automatically provided contract financing at the maximum amount allowable under
the FAR. As a result, contracting personnel provided PBP amounts that included profit, and
which were therefore likely in excess of the contractor’s actual financing needs and not
necessary for successful contract performance. In addition, by providing the maximum amount
of contract financing allowable under the FAR, contracting personnel also awarded PBP
schedules that created a negative or unreasonably low level of contractor investment in the
contract.

Including Profit Is Not Necessary for Successful Contract Performance
When DoD contracting personnel awarded contractors with 90 percent PBP financing in 46 of
60 contracts, they included profit with the PBP values. Specifically, 29 contracts that allowed
90 percent contract financing included profit of 10 percent or more, which called into question
whether the contractor truly needed the maximum contract financing amount for successful
contract performance. For sample contract W31P4Q-10-C-0132, DoD contracting personnel
negotiated a profit rate of 16.9 percent and approved the PBP event values totaling 90 percent of
the contract value. However, the contractor incurred costs for only 85.6 percent of the contract
value. When DoD contracting personnel allowed PBP events valued at 90 percent of the contract
value, they included profit and financed the contractor at 105.2 percent of the contractor’s total



9
  The FAR defines less stringent criteria for small businesses. In our sample, four small businesses met the less
stringent FAR criteria. We did not include them in our discussion. In addition, there are other criteria such as
determining whether the expenditures will have a significant impact on the contractor’s working capital fund. The
audit did not include tests for this requirement. See “Contracting Personnel Did Not Provide Contract Financing
Only to the Extent Necessary or Require a Reasonable Contractor Investment” for discussion on contractor need.


                                                        22
costs. Therefore, DoD contracting personnel provided the contractor with a positive cash flow,
which would not appear to be necessary for successful completion of the contract.

In another example, a contractor submitted a PBP request that brought the total of PBP payments
to $1.848 billion. However, according to the contractor’s cash flow analysis, the cumulative
costs at that time were only $1.601 billion. Therefore, at the time the contractor submitted a
payment request, the contractor estimated receipt of a positive cash flow of $247 million, or
15.4 percent more than its incurred costs. It is unlikely that cash flow in excess of actual costs
was needed for successful contract performance as required by the FAR.

Ensuring a Reasonable Contractor Investment Is Required
When DoD contracting personnel awarded 57 of the 60 sample contracts containing the PBP
schedules, they did not verify that the contractor had a reasonable level of investment, as
required by the FAR. Specifically, when contracting personnel provided the contractor with
financing for the contractor’s entire incurred costs to date, the contractor had zero investment in
the contract. When contracting personnel provided the contractor with financing for more than
the contractor’s incurred costs, the contractor had a negative investment in the contract. These
actions contradicted the FAR expectation that contractors assume some level of financial risk in
the contract.

Although contracting personnel negotiated contractor profit rates, not only did they not consider
the negotiated profit rates to determine what amount of PBP financing was necessary for
successful performance but also did not consider the impact of the profit rates on the contractor’s
level of investment in the contract. For example, in contract W31P4Q-11-C-0001 for Patriot
missiles, DoD contracting personnel negotiated an effective profit rate of 13.0 percent and
provided the contractor with 90 percent contract financing. When the profit rate exceeds the
liquidation rate it indicates the contract financing includes some portion of the profit, if not a
proportional rate of profit depending how the profit is liquidated in a contract. Including the
profit in the PBP values meant that the contractor actually had a negative investment in the
contract because the Government provided more financing than the contractor’s incurred costs.

In this example, the data showed that DoD contracting personnel allowed the contractor to
include the entire 13.0 percent profit with each PBP payment. Therefore, in this contract, DoD
contracting personnel provided the contractor with a negative investment of 13.0 percent because
contracting personnel included profit with each payment rather than at the contract’s completion.

Contracting Personnel Relied on Inadequate and Inaccurate
DoD Guidance
DoD contracting personnel did not determine contractors’ financing needs before awarding the
contracts because of inaccurate and inadequate DoD guidance. Specifically, the 2001 guidance
is limited and only discussed specific concepts regarding PBPs, including when to use PBP
financing on contracts, how to establish and value PBP events, and how to liquidate PBP
payments.




                                                 23
However, the guidance misrepresented specific criteria in the FAR, and did not provide DoD
contracting personnel with a complete basis for negotiating, awarding, and administering the
contracts.

Specifically, the guidance:

   •   lacks instructions for DoD contracting personnel to determine which financing method
       was preferred,
   •   lacks instructions for DoD contracting personnel to determine what a reasonable level of
       contractor investment was, and how to determine the level of investment,
   •   misrepresents the FAR requirement for providing PBPs only to the extent necessary, and
   •   indicates that including profit in the PBP amounts was acceptable.

Expanded Guidance Needed to Determine Financing Methods
The 2001 guidance lacks instructions for DoD contracting personnel to determine which
financing method contracting personnel should use. Specifically, the guidance stated only that
the use of PBP financing is the Government’s preferred method of financing for fixed-price
contracts. However, it should have included a discussion that DoD contracting personnel must
first consider whether the contractor could obtain private contract financing, as required by the
FAR. FAR Part 32.106, “Order of Preference,” specifically requires contracting officers to
consider whether private financing is available at reasonable terms, outside of the Government.
If private financing at reasonable terms was unavailable to the contractor, the contracting officer
could consider customary contract financing, with PBPs being the preferred method of
customary contract financing.

Defense Pricing Draft Update to PBP Guidance Improves
Financing Instructions
The 2012 draft guidance added the FAR requirement for contracting officers to consider the
contractor’s need for financing by highlighting the FAR order of preference, where “private
financing without Government guarantee” is the preferred Government financing. The draft PBP
guidance adds, “from a business perspective, the FAR order of preference is entirely logical.”
Although the draft guidance included the FAR order of preference, the updated guidance may
mislead users into concluding that PBP financing should always be used. Specifically, the
guidance states, “Although the first preference is that no Government contract financing be
provided, the Government provides contract financing on the vast majority of fixed price, non-
commercial contracts when deliveries are scheduled to begin six months or more after contract
award.” Therefore, Defense Pricing personnel should update and finalize the 2012 draft
guidance to provide detailed guidance on how to determine whether there is a need for contract
financing. Specifically, the updated guidance should require contracting personnel to review a
contractor’s financial information and determine the contractor’s ability to obtain private
financing at a reasonable rate before allowing PBP financing.




                                                24
Guidance Needed to Clarify a Reasonable Level of
Contractor Investment
DoD contracting personnel repeatedly stated that they did not have any guidance to rely upon
when negotiating the total amount of PBP contract financing. Specifically, DoD contracting
personnel provided excess funding to contractors because guidance did not exist to determine
what an unreasonably low or negative level of contractor investment in the contract should be.

DoD guidance did not require that contractors must have a reasonable level of investment, as
expected by the FAR. Specifically, the 2001 guidance incorrectly advises that because
                                                contractor cost was likely to be less than 90
   This guidance would lead the reader to       percent of the negotiated price, PBPs were likely
   presume that PBPs should always equal        to include profit. This guidance would lead the
       the FAR maximum threshold and            reader to presume that PBPs should always equal
    ignored other, limiting FAR language.       the FAR maximum threshold and ignored other,
                                                limiting FAR language. The guidance mentioned
that the contracting officer should ensure the contractor did not have an unreasonably low or
negative level of investment in the contract, but did not provide specific guidance on how to
determine the appropriate, reasonable level of investment. In addition, the 2001 guidance
accepts profit in the PBPs.

The 2012 draft guidance recognizes that the 2001 guidance is incorrect and states that the
contracting officer should not include profit when providing PBP payments. We agree with this
policy change and note that additional changes are needed. Specifically, the draft guidance does
not define “unreasonably low” level of investment or how to ensure that the contractor had a
reasonable level of investment. In addition, the draft guidance does not reference
FAR clause 52.232-28, which requires the contractor to provide the contracting officer with
information about its level of investment in the contract. Therefore, Defense Pricing personnel
should develop guidance that defines what an “unreasonably low” level of contractor investment
in the contract is and how to determine contactor investment. In addition, they should provide
guidance on how to use FAR clause 52.232-28 to obtain information on contractor investment.

Guidance Should Restrict Financing to Extent Necessary
DoD contracting personnel did not provide PBP financing only to the extent necessary for
successful contract completion because they relied on DoD guidance, which would lead the
reader to presume that PBPs should always equal the FAR maximum threshold and ignored other
limiting FAR language. The 2001 guidance states “PBPs can be made for up to a specified
portion of the contract’s or line item’s price (currently 90%), whereas traditional progress
payments are limited to a fixed percentage of incurred cost (currently 80% for DoD). . . . [PBPs]
can have a substantial positive cash-flow advantage for a contractor.”

The 2001 guidance provides DoD contracting personnel with a hypothetical example that
assumed the use of a 90 percent financing rate and inclusion of profit. This guidance was silent
on the FAR requirement that contracting officers should provide financing only to the extent
necessary.




                                               25
The guidance should have included a discussion that 90 percent was the maximum limit, and
contracting personnel should provide financing only to the level needed for successful
performance.

Defense Pricing Draft 2012 Update of 2001 PBP Guidance Improves
Instructions on Financing Rates
The 2012 draft guidance clarifies the importance of determining the extent to which PBP
financing is provided. The draft guidance explicitly states that “it is important to note that 90%
is the maximum that can be provided and not the default level of PBP financing.” In addition,
the draft guidance correctly acknowledges that PBPs require considerable upfront time and effort
between both parties to determine “win-win” financing values. The Defense Pricing personnel
should update and finalize the DoD guidance to provide examples of how DoD contracting
personnel should determine when a financing rate less than the maximum 90 percent would be
appropriate.

Guidance Incorrectly Encouraged Including Contractor Profit in
Event Values
The 2001 guidance incorrectly advises contracting officers to allow negotiated profit to be
included in the PBP amounts. Specifically, the guidance incorrectly suggested that “since in
most fixed-priced contract situations the contractor’s costs of performance are likely to be less
than 90% of the negotiated price, PBPs are likely to afford the contractor a small amount of
profit beyond that initially contemplated.” This guidance conflicted with a proper interpretation
of FAR 32.1004, which requires contracting officers to ensure the PBPs reflect prudent contract
financing provided only to the extent needed for contract performance and not to exceed
90 percent of the acquisition. Providing profit generally should not be necessary for successful
contract completion.

Defense Pricing 2012 Draft Update of 2001 PBP Guidance Improves
Compliance With FAR
The 2012 draft guidance states that the previously issued guidance, which advised contracting
officers that because “contractor cost is likely to be less than 90% of the negotiated price, PBPs
are likely to include profit,” was incorrect. Additionally, in an example comparing progress
payments to PBP calculations, the 2012 draft guidance makes this express point: “Under
progress payments the contractor is appropriately provided all profit earned, but only upon
delivery, not as part of contract financing. Since PBPs are a type of contract financing, payment
of profit is still only appropriate upon delivery.” The updated guidance better aligns its
discussion of financing rates to the intent of the PBP requirement in FAR 32.1004. As Defense
Pricing personnel update and finalize the draft guidance, they should include the requirement that
PBP values should not include profit.

DoD May Have Incurred Unnecessary Costs and Not
Received Adequate Consideration
When contracting personnel provided contract financing without adequately assessing
contractors’ financial need, DoD may have unnecessarily incurred significant carrying costs and
limited DoD’s ability to ensure it received adequate consideration for providing the financing.


                                               26
DoD Incurred Carrying Costs on Financing Payments
DoD incurred carrying costs associated with contract financing payments. These carrying costs
were the result of the Treasury borrowing funds to make the payments. The current interest rate
reported by the Treasury is 1 percent. The rate has fluctuated between 1 percent and 5 percent
from CY 2007 through CY 2012. Therefore, to minimize costs, DoD should not provide more
PBPs than necessary for successful contract performance. Specifically, DoD should, at a
minimum, negotiate the PBP schedule to ensure the Government does not finance profit and that
the contractor bears a reasonable level of investment.

For 60 of the 60 sampled contracts, contracting personnel did not adequately determine whether
PBPs were necessary. These contracts had PBP disbursements totaling $7.5 billion as of
May 16, 2012, with calculated interest-based carrying costs of $28.8 million as of May 16, 2012.
We determined the carrying costs using the time between the PBP payment and the date the PBP
financing was liquidated. If the PBP financing had not been liquidated, we calculated the
carrying costs through May 16, 2012. For example, one sample contract with $1.6 billion in PBP
disbursements had a total of $12.3 million in carrying costs. For this contract, contracting
personnel did not determine whether the contractor needed financing because contracting
personnel provided the contractor PBP financing for similar prior contract awards.

There were an additional 570 open U.S.-funded contracts with a total of $15.8 billion of PBP
payments as of May 16, 2012, and a calculated $88.8 million in carrying costs. See Appendix A
for additional details of determining carrying costs.

Excluding Profit from PBP Payments Would Reduce Carrying Costs
Of the $28.8 million in carrying costs related to the 60 contracts, between $2.9 million and
$3.3 million of the carrying costs related to improperly funding the contractor’s profit. In
                                                  addition, assuming a low profit rate of
    … between $2.9 million and $3.3 million
                                                  6.0 percent to a high profit rate of 14.4 percent
   of the carrying costs related to improperly
                                                  as identified in the sample, DoD could have
         funding the contractor’s profit.
                                                  incurred carrying costs related to funding
contractors’ profit of between $5.3 million and $12.8 million of the $88.8 million carrying costs
of the remaining contracts. See Appendix A for details on our methodology.

Ensuring Reasonable Level of Investment Would Reduce Carrying Costs
In addition to ensuring that profit was not included in the PBP values, contracting personnel
could further reduce carrying costs by requiring that contractors have a reasonable investment in
the contract. The FAR requires that DoD ensure that the contractor not have an unreasonably
low level of investment in the contract.

When DoD personnel determine a reasonable level of investment for a contractor, the carrying
costs would be reduced accordingly because the PBP event values would be reduced by the
contractor investment. Table 4 provides a breakout of the carrying costs that could be reduced
depending on what level of investment the DoD guidance establishes.




                                                27
           Table 4. Potential Reduced Carrying Costs Related to Reasonable Investment
          Percent of Costs                 Sample Contracts              Remaining Universe            Total
      Considered Reasonable             (calculated carrying costs        (calculated carrying     (in millions)
     Investment for Contractor              of $28.8 million)            costs of $88.8 million)
             to Carry
                  1                                   $0.2                         $0.8               $1.0
                  5                                    1.2                          3.8                5.0
                10                                     2.4                          7.6               10.0
                20                                     4.9                         15.2               20.1

Specifically, in Table 4, we calculated the reduced carrying costs assuming a 1-percent level of
contractor investment through a 20-percent level of investment. We included a 20-percent level
of investment in the example because the other common contract financing process (progress
payments based on costs) limited payment to nonsmall businesses to 80 percent of incurred
costs. Additionally, we assumed that contracting personnel did not already negotiate the PBP
amounts with a reasonable level of contractor investment.

Potential Monetary Benefits Could Be Realized
If contracting personnel ensured that PBP event values did not include profit and that contractors
had a reasonable level of investment, the Government could realize potential monetary benefits
from between $13.6 million and $53.3 million related to reduced carrying costs. Costs could be
reduced by an additional amount if contracting personnel verified whether, and to what extent,
contractors should receive financing payments before contract award.

The potential monetary benefits we calculated were funds that could be put to better use and
were based on the past trend of profit, reasonable investment carrying costs, and calculated PBPs
over the next 5 years. We could not calculate the additional potential monetary benefits related
to DoD’s assessment of how much contract financing it should provide contractors. Finally,
because the potential monetary benefit associated with carrying costs is related to the
U.S. Treasury, no specific DoD appropriation is benefitted. See Appendix A for our specific
methodology for calculating potential monetary benefits.

Determining Whether Adequate Consideration Was Received for
Providing PBPs
Contracting personnel automatically included contract financing in 48 of the 54 10 sole-source
awarded sample contracts by inserting FAR clause 52.232-32 at contract inception. By doing
this, they limited their ability to ensure they received adequate consideration for providing
contract financing. FAR 32.005, “Consideration for Contract Financing,” states that when the
contracting officer includes a contract financing clause at contract inception there shall be no
separate consideration, and the value of contract financing is expected to be reflected in either a
lower price or more favorable contract terms and conditions than without contract financing.

The FAR provides that contracting officers evaluate the adequacy of contractor consideration in
other financing circumstances. Specifically, FAR 32.005 states that the contracting officer


10
     Of the 60 sample contracts, the remaining 6 were competitively awarded.


                                                          28
should evaluate whether new consideration is adequate when there are changes to, or the addition
of, contract financing after award. Therefore, if contracting personnel had not automatically
included PBP financing in the original negotiation terms, they could have evaluated the
appropriateness of contractor consideration at the time when contract financing terms were
added.

The FAR 32.005 expectation of adequate financing consideration appears appropriate in a
competitively awarded, fixed-price contract, because a low price (or more favorable terms) is
generally an important factor in ensuring a successful competitive bid or contract award.
However, for contracts that DoD awards sole-source (noncompetitively), the contractor may not
have the same incentive to provide DoD a lower price based on the value of contract financing,
especially where the need for financing has not been established. Contracting personnel awarded
48 11 of the 54 sampled contracts sole-source, without ensuring adequate consideration for
authorizing PBPs.

If contracting personnel did not automatically authorize PBPs at contract inception for sole-
source contracts, DoD could better protect its interests by reviewing the proposed consideration
                                                 in detail. For example, contracting personnel
        If contracting personnel did not         included FAR clause 52.232-32 in the solicitation
   automatically authorize PBPs at contract for sample contract N00019-09-C-0019, and
   inception for sole-source contracts, DoD      contracting personnel had to assume that the
        could better protect its interests.      contractor provided DoD consideration for the
                                                 PBP financing. Had contracting personnel
adequately determined the need for financing after the solicitation, DoD could have ensured it
received adequate consideration from the contractor for the $12.3 million in estimated
Government carrying costs associated with this contract.

2012 Draft Guidance Needs Improvement
The 2012 draft guidance highlights the importance of the cost of money when providing PBP
financing, and it states that the PCO should view the cost of money as a “win-win deal,” where
the Government can negotiate a lower contract price based on the improved cash flow provided
with PBPs to the contractor. Defense Pricing personnel established a “PBP Analysis Tool” to
quantify the benefits provided to the contractor through the PBP financing and to ultimately
receive comparable consideration to obtain a “win-win deal.”

The increased focus on a “win-win deal” in the updated guidance is a step in the right direction
for DoD to ensure the Government considers the cost of money and adequate consideration when
it provides PBP financing. However, the 2012 draft provides guidance only on calculating the
cost of money and receiving consideration when the contract changes from progress payments to
PBPs.

Significant value could be realized if the 2012 draft guidance had identified that contracting
personnel did not need to provide any contract financing in sole-source acquisitions until the


11
  While the remaining six sole-source contracts also included the PBP clause at contract inception, the contracting
personnel still ensured that they received consideration for authorizing PBPs.


                                                         29
contractor demonstrated a need for financing because contracting personnel could then better
ensure that they received adequate consideration for providing contract financing.

Recommendations, Management Comments, and Our
Response
C. We recommend that the Director, Defense Pricing issue guidance requiring contracting
personnel to:

       1. Determine whether the contractor can obtain private financing at a reasonable
          rate before allowing PBP financing.

       2. Determine an appropriate financing rate. This determination should include
          guidance on how to use Federal Acquisition Regulation clause 52.232-28 to
          obtain information on contractor investment and a definition of what a
          reasonable level of contractor investment is, understanding that
          performance-based payment events should not generally include contractor
          profit.

       3. Refrain from including the Federal Acquisition Regulation clause 52.232-32 at
          contract inception for sole-source contracts, unless they have sufficient evidence
          that the contractor needs contractor financing. This will help ensure that DoD
          receives adequate consideration for contract financing in sole-source
          acquisitions.

Defense Pricing Comments
The Director, Defense Pricing, agreed and stated that his office will issue guidance addressing
the topics contained in the recommendation. In a conversation subsequent to receiving
management comments, Defense Pricing personnel stated that their office will update the
guidance with an estimated completion date of September 2013.

Our Response
Comments from the Director, Defense Pricing, on Recommendations C.1 through C.3 were
responsive, and no additional comments are required.




                                               30
Appendix A. Scope and Methodology
We conducted this performance audit from March 2012 through February 2013 in accordance
with generally accepted Government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To accomplish our audit objectives, we coordinated with and interviewed contracting personnel
from the Army, Navy, Air Force, and DCMA. We obtained and reviewed FAR 32, “Contract
Financing,” and FAR Subpart 32.10, “Performance-Based Payments,” as they relate to contract
financing and PBPs.

Sample Selection
We obtained the DFAS Columbus Mechanization of Contract Administration Services records,
which contained 770 open PBP contracts, with $27.9 billion in disbursements through
May 16, 2012. The 770 contracts represented 39 separate contracting locations. We
nonstatistically selected 60 of the 770 contracts for our sample. We selected the contracts from
seven high-dollar sites and selected contracts based on review of high risk. The contracts were
awarded from FY 2009 through FY 2011. We included Army, Navy, and Air Force contracts
based on PBP contract volume. We excluded the Marine Corps and other Defense agencies from
the sample because they encompassed a small percentage of payments. The contracts were
either solely funded by DoD, funded for Foreign Military Sales, or a combination of both.
Table A-1 shows how many contracts DoD funded itself or for which it used Foreign Military
Sales funds.

                                Table A-1. Types of Contract Funding
                            Contract Funding                   Number of Contracts
              Solely funded by DoD                                      42
              DoD use of Foreign Military Sales funds                    8
              Combination of U.S. and Foreign Military Sales            10
                Total                                                   60

We conducted site visits at seven contracting locations for eight separate contracting offices.
Specifically, TACOM in Michigan, U.S. Army Redstone Arsenal in Alabama, U.S. Army
Aberdeen Proving Ground in Maryland, U.S. Army Program Executive Office for Simulation,
Training, and Instrumentation in Florida, Naval Air Station Patuxent River in Maryland, Naval
Air Warfare Center in Florida, Eglin Air Force Base in Florida, and Hill Air Force Base in Utah.




                                                31
We interviewed contracting personnel for each contract and obtained documentation to
determine how the PBPs were negotiated. We also interviewed contracting personnel for each
contract and obtained documentation to determine how they verified that contractors successfully
completed the events before payment. In addition, we obtained and reviewed the 60 contracts
and supporting documentation to determine whether they were in compliance with the FAR and
DoD requirements.

Carrying Costs and Reasonable Investment Methodology
We used the universe provided by DFAS Columbus to calculate the amount of carrying costs.
We calculated the carrying costs from the date the PBP payment was made to the date that the
delivery invoice was paid. If the invoice had not yet been paid, we calculated carrying costs as
of May 16, 2012. We used the 1-percent yearly interest rate provided by the U.S. Treasury in the
determination. For instance, if a PBP was made to a contractor in the amount of $1 million and
the delivery was not made until 180 days later, we would calculate the carrying costs as
$4,931.51 for that transaction (180 days/365 days x .01 Treasury rate x $1 million).

We used the calculated carrying costs to determine the costs incurred to finance the profit portion
of the PBPs. We determined the carrying cost for each sample contract reviewed and multiplied
that figure by the profit rate negotiated for the contract. This calculation took into account an
equal amount of profit liquidated with each PBP made as a high range, and the difference
between the profit rate and PBP withholding as the low range. To demonstrate the possible
magnitude of the nonsample items, we then applied the greatest and lowest profit rates identified
in our review to the overall carrying costs for the applicable nonsample open contracts. For this
calculation, we used 6.0 percent as the lowest rate and 14.4 percent as the highest profit rate
observed. This is not a statistical estimate but rather an analytical calculation to determine the
possible dollar magnitude.

For the reasonable investment methodology, we took a straight percentage of the carrying costs.

Potential Monetary Benefits
We calculated the potential monetary benefits by analyzing the carrying costs related to the PBPs
that financed contractor profit and our calculation of a reasonable level of contractor investment
for the open PBP contracts. (See paragraph above for our carrying costs methodology). The
carrying costs were related to contracts with PBP disbursements that were awarded from
FY 2009 through FY 2011. DFAS paid the disbursements between December 5, 2008, through
May 16, 2012, which is 3.4 years. Therefore, we took the total amount of carrying costs related
to profit and reasonable investment and divided that amount by 3.4 to obtain a yearly amount.
We then multiplied the yearly amount by 5 to calculate the potential monetary benefit that could
be realized if DoD contracting personnel implement additional controls. See Table A-2 for
specific calculations.




                                                32
                        Table A-2. Potential Monetary Benefits Calculations
                                            (in millions)
     Range      Profit Carrying Costs for       Reasonable       Total Carrying         Yearly          5-Year
                Sample 12     Nonsample         Investment       Cost for Profit      Calculated       Potential
                                                for Sample            and            Carrying Cost     Monetary
                                                    and           Reasonable                            Benefit
                                                Nonsample         Investment
     Low           $2.9            $5.3             $1.0              $9.2                $2.7            $13.6
     High           3.3            12.8             20.1              36.2                10.7*            53.3*
*The calculations were based on actuals and the amounts in the table may differ because of rounding.

Use of Computer-Processed Data
We used computer-processed data from the Mechanization of Contract Administration Services
system to determine our universe, select our sample contracts, and calculate the carrying and
administrative costs. We also used computer-processed data from the Wide-Area Work Flow
system. We assessed the reliability of the data by ensuring that the computer-processed data
from our sample selection was supported by independent documentation. From this testing, we
determined that the data were sufficiently reliable for the purposes of our analysis.

Use of Technical Assistance
The DoD OIG Quantitative Methods Division assisted with the audit. Specifically, Quantitative
Methods Division personnel provided support and assistance in recalculating and verifying the
carrying cost amounts for the nonsample items, as described in Appendix A.

Prior Coverage
During the last 5 years, there were no reports issued discussing the negotiation, award, and
administration of PBPs.




12
  The low-range carrying cost of profit was derived from multiplying the carrying cost from each sample contract to
the effective profit percentages multiplied by the PBP liquidation rate. The high range was determined by
multiplying the carrying cost for each sample contract by the effective profit percentage.


                                                        33
            Appendix B. List of 60 Sample Contracts
  Ordering               Contract           Total PBP       Total PBP          Total                 Condition*
  Activity               Number               Event             Paid          Carrying
                                                                                               A      B       C          D
                                             Values         (in millions)      Costs
                                            (in millions)                   (in thousands)
TACOM,              W56HZV09D0116                  $42.1          $22.8             $72.0      X      X       X          X
Michigan            0006
                    W56HZV09D0024                    2.3              2.3              9.3     X      X                  X
                    0048
                    W56HZV09C0311                   56.1           42.2             344.4      X      X       X          X
                    W56HZV09CB014                    5.0            4.4              11.7      X      X       X          X
                    W56HZV10C0399                    1.4            0.8               3.8      X      X       X          X
                    W56HZV10C0263                    9.7            9.7              44.5             X       X          X
                    W56HZV10C0238                   12.3           11.1              49.0      X      X       X          X
                    W56HZV11P0659                    0.3            0.2               1.1      X      X       X          X
                    W56HZV10C0301                    0.5            0.5               3.0             X       X          X
U.S. Army           W31P4Q09G0001                2,523.1        2,268.1                 0      X              X          X
Redstone            0002
Arsenal,            W31P4Q11C0001                  959.1          474.2             190.5      X                         X
Alabama
                    W31P4Q09C0002                  660.9          651.6           1,975.8      X      X                  X
                    W31P4Q09G0002                  129.1           97.4                 0      X              X          X
                    0001
                    W31P4Q09G0001                  103.4            59.8                 0     X              X          X
                    0001
                    W31P4Q10C0132                   51.1            39.3            264.6      X              X          X
                    W31P4Q09G0002                   92.1            41.9                0      X              X          X
                    0003
                    W31P4Q09C0321                   29.1           20.8                 0      X              X          X
                    W31P4Q10C0301                   24.6           17.8             155.5      X              X          X
                    W31P4Q11C0084                  130.6           26.4                 0      X      X       X          X
                    W31P4Q09C0001                  383.4          288.1           1,909.1      X              X          X
                    W31P4Q10C0270                  372.4          303.2           1,864.0      X                         X
                    W58RGZ09C0147                  187.6          145.0                 0      X      X       X          X

            *Condition:
            A – Approval of inappropriate events (See report page number 5, Table 1 for further discussion.)
            B – PBP Amount Not Representative of Event Values (See report page number 8, “Performance-Based Amounts
            Were Not Commensurate With Event Values” for further discussion.)
            C – Missing required elements (See report page number 14, Table 2 for further discussion.)
            D – Unnecessary use of PBP contract financing (See report page number 20, Table 3 for further discussion.)




                                                                 34
            Appendix B continued
U.S. Army          W15P7T11CH466      16.2      14.3        45.5   X   X   X   X
Aberdeen           W15P7T10DS229       6.4       6.4        48.7   X   X       X
Proving            0001
Ground,
                   W15P7T11DH001       2.8        1.3        7.8   X   X   X   X
Maryland
                   0001
                   W91CRB09D0029      63.6      63.6       295.3   X   X   X   X
                   0001
                   W911SR09D0002      19.3      19.3       321.0   X   X   X   X
                   0001
                   W15P7T10DS229       9.0        9.0       38.6   X   X       X
                   0002
U.S. Army          W900KK09D0340       6.5        6.5      62.7    X   X   X   X
Program            0004
Executive          W900KK09D0314       8.2        6.9      45.2    X   X   X   X
Office for         0010
Simulation,
                   W900KK09D0314       8.9        5.7      42.1    X   X   X   X
Training, and
                   0007
Instrumentation,
Florida            W900KK09D0376     10.3         9.2      45.3    X   X   X   X
                   0004
                   W900KK09D0517       2.8        1.9        9.5   X       X   X
                   0002
                   W900KK09D0350       2.8        1.3      16.5    X   X   X   X
                   0004
                   W900KK11C0013       0.9        0.5       2.7    X   X   X   X
                   W900KK09D0008       6.5        6.5      36.2    X   X   X   X
                   0002
Naval Air          N0001909C0019   5,125.8   1,622.9    12,306.6   X   X   X   X
Station            N0001909C0052     301.6     163.5       995.0   X   X       X
Patuxent River,
                   N0001910D0006      29.1      29.1       329.0   X   X       X
Maryland
                   0001
                   N0001910D0006     16.3      16.3        70.8    X   X       X
                   0002
                   N0001909C0086    654.3     409.2      2,870.2   X       X   X
                   N0001909C0096    126.7      97.2      1,126.3   X           X
                   N0001911C0032    116.7      48.4        176.0   X   X   X   X
                   N0042110D0010     20.4      20.4        202.2   X   X   X   X
                   0001
                   N0001911C0022     24.3      17.8        99.3    X       X   X
                   N0001910C0069     60.9      53.2       198.6    X   X   X   X
                   N0042109C0039     30.7      30.2       277.7    X   X   X   X
                   N0001910C0047     92.9      38.3       137.3    X   X   X   X



                                             35
           Appendix B continued
Naval Air         N6133910C0050         3.6        2.3        13.4   X         X    X
Warfare Center,   N6134011C0006        66.5       29.8       138.0   X              X
Florida
                  N6133910C0038         5.4        1.5        11.9   X    X    X    X
                  N6133910C0054         2.0        2.0        21.0   X    X         X
Eglin Air Force   FA867510C0014       471.8      216.5     1,065.9   X    X    X    X
Base, Florida     FA868210C0010        46.7       46.7       709.0   X    X         X
                  FA920010C0098         0.7        0.7         3.7   X    X    X    X
                  FA867711C0103         0.3        0.2         2.1   X    X    X    X
Hill Air Force    FA821709C0004         2.4        2.4        28.1   X    X         X
Base, Utah        FA822309C0009         9.5        7.5        38.7        X    X    X
                  FA823210C0006         2.4        2.4        18.1   X    X    X    X
                  FA821709C0011         0.5        0.3         3.8   X    X    X    X
  Total                           $13,151.9   $7,538.8   $28,758.1   57   44   46   60




                                               36
Appendix C. Select Performance-Based
Payment Schedules
The following figures show excerpts from sample contract schedules that include inappropriate
events; missing or inadequate success criteria; improper value of events; and the unnecessary use
of contract financing. We inserted comment boxes calling out the specific deficiencies for each
event excerpt.

                          Figure C-1. Contract FA8675-10-C-0014

                    Postaward conference




                                                                                       Purchase order




                                                    Monthly events representing
                                                    a passage of time




                                               37
                      Figure C-2. Contract W900KK-09-D-0008-0002



                                          Purchase order

                                   Maximum 90-percent
                                   financing without regard
                                   for contractor need

                                     Government acceptance




                                       Entry event

                                Maximum 90-percent
                                financing without regard
                                for contractor need

                                     Government acceptance




                                       Entry event

                                     Maximum 90-percent
                                     financing without regard
                                     for contractor need

                                       Government acceptance



Schedule does not contain verifiable success criteria, expected date of completion, or whether the
event is severable or cumulative.




                                                38
Figure C-3. Contract W31P4Q-09-G-0001-0001

    Entry event for 11.56 percent
    of contract, not likely to be
    commensurate with value




           Purchase order




             Maximum 90-percent financing
             without regard for contractor profit




                       39
Defense Pricing Comments




                           40
41
42
